March 25, 2020
Jeff Atkins
Deputy Clerk for Case Initiation
Hon. Scott Harris
Clerk of the Court
Supreme Court of the United States
Washington, D.C. 20543
Re:

Richards v. Barrett, No. 19-55

Dear Mr. Atkins:
The brief of respondent in the above-captioned case was filed on March 23, 2020. The
reply of petitioner is currently due to be filed prior to the April 8, 2020 distribution date.
Pursuant to the Court’s March 19, 2020 Order, Petitioner James W. Richards respectfully
requests a two-week postponement of the distribution of his petition for a writ of certiorari.
Counsel of Record for Mr. Richards is employed by the United States Air Force and therefore,
must use utilize a contract-award system for all Supreme Court briefing. Such a system requires
the review and coordination of other federal employees and because of the teleworking
complications surrounding the COVID-19 pandemic, delays in approval for printing as well as
possible delays for the printer itself are likely. A two-week postponement of the distribution date
will allow Counsel of Record for Mr. Richards to coordinate with all appropriate parties and
ensure the timely filing of the reply of petitioner.
Accordingly, Respondent respectfully requests a 2-week postponement of the distribution
of his petition for a writ of certiorari, extending the distribution date to April 22, 2020.
Sincerely,

Mark C. Bruegger
Counsel for Petitioner
cc:

Noel Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217

